                                                                             Report No. DODIG-2014-080



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JUNE 10, 2014




                     Assessment of DoD Processes
                     in Support of Committee on
                     Foreign Investment in the United
                     States (CFIUS) Determinations
                     and Foreign Ownership, Control,
                     or Influence (FOCI) Mitigation




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Assessment of DoD Processes in Support of Committee on
                               Foreign Investment in the United States (CFIUS) Determinations
                               and Foreign Ownership, Control, or Influence (FOCI) Mitigation



June 10, 2014                                    Findings (cont’d)

Objective                                        specifies security requirements for classified contracts—as part
                                                 of an enterprise system that manages the flow of contract
This report on the assessment of DoD             information to support industrial security within cleared
processes to support Committee on Foreign        defense industry.
Investment in the United States (CFIUS)
determinations and foreign ownership,
control, or influence (FOCI) mitigation
                                                 Recommendations
responds to longstanding management              We recommend that the Under Secretary of Defense for
concerns      and   the  U.S.  Government        Intelligence (USD(I)), in coordination with the Under
Accountability Office (GAO) high risk area       Secretary of Defense for Acquisition, Technology, and
of ensuring the effective protection of          Logistics (USD(AT&L)), issue guidance that defines ownership
technologies critical to U.S. national           of information, delineates responsibility for coordination
security interests.                              within respective Service and agency organizations, and
                                                 outlines a consistent process flow for National Interest
We assessed the process for determining          Determinations to further a synchronized, integrated
and relaying relevant threat information         approach to support CFIUS determinations and foreign
and recommendations to the CFIUS, the            ownership, control, or influence mitigation. We further
strength of FOCI mitigation within cleared       recommend that the USD(I), in coordination with the
defense industry, and the effectiveness of       USD(AT&L), direct the creation of a centralized repository
existing tools to help FOCI mitigations and      for cleared defense contracts, to maintain DD Form 254s and
CFIUS determinations.                            other contract security requirements for classified contracts,
                                                 and designate the Defense Security Service as executive agent
                                                 in its role as the National Industrial Security Program
Findings                                         Cognizant Security Office for DoD, 26 non‑DoD agencies, and
We found that existing policies clearly define   approximately 13,500 cleared contractors.
requirements to support National Interest
Determinations, but they do not effectively
delineate roles and responsibilities to
                                                 Management Comments
support the Services, agencies, and the          Management concurred with the two main recommendations
acquisition community resulting in a             and its comments were responsive. Management non-concurred
significant backlog of decisions.                with designating at this time an executive agent for the
                                                 DD Form 254 central repository. We require no further
We also found that a need exists for a           comment and will continue to monitor DD Form 254
centralized, accessible database to process      repository developments, along with the corresponding
and store DD Form 254s—a document that           Office of Management and Budget/Federal Register
                                                 approval process.

Visit us at www.dodig.mil


                                                                     DODIG-2014-080 (Project No. D2012-DINT01-0159.000)│ i
                   Recommendations Table
                                                                  Recommendations       No Additional
                                        Management                Requiring Comment   Comments Required
                    Under Secretary of Defense for Acquisition,                       A, B
                    Technology, and Logistics

                    Under Secretary of Defense for Intelligence                       A, B




ii │ DODIG-2014-080 (Project No. D2012-DINT01-0159.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                    June 10, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
               	 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               DIRECTOR, DEFENSE SECURITY SERVICE

SUBJECT:	 Assessment of DoD Processes in Support of Committee on Foreign Investment in the
          United States (CFIUS) Determinations and Foreign Ownership, Control, or Influence (FOCI)
          Mitigation (Report No. DoDIG-2014-080)

We are providing this report for your information and use. We issued a draft of this report
on February 10, 2014. This report responds to a request by a former Under Secretary of Defense
for Intelligence, to assess the efficacy of FOCI mitigation within the defense industrial base and
review the process for relaying relevant information to the CFIUS. It also responds to the
U.S. Government Accountability Office high risk area of “ensuring the effective protection of
technologies critical to U.S. national security interests.”

We considered comments from the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics, and the Office of the Under Secretary of Defense for Intelligence.
Management concurred with the two main recommendations and its comments were
responsive. Management non-concurred with designating at this time an executive agent for
the DD Form 254 central repository. We require no further comment and will continue to
monitor DD Form 254 repository developments, along with the corresponding Office of
Management and Budget/Federal Register approval process.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 882-4860, or the Project Manager at (703) 699-7214 (DSN 499-7214).




	 Anthony C. Thomas
	 Deputy Inspector General for
		 Intelligence and Special
		 Program Assessments




                                                                                          DODIG-2014-080│ iii
                  Distribution:

                  Under Secretary of Defense for Acquisition, Technology, and Logistics
                  Under Secretary of Defense for Intelligence
                  Director, Defense Security Service
                  Director, Missile Defense Agency
                  Assistant Secretary of the Army for Acquisitions, Logistics and Technology
                  Army Deputy Chief of Staff, G-2
                  Assistant Secretary of the Air Force for Acquisition
                  Administrative Assistant to the Secretary of the Air Force
                  Assistant Secretary of the Navy for Research, Development, and Acquisition
                  Deputy Under Secretary of the Navy for Plans, Policy, Oversight and Integration




iv │ DODIG-2014-080
Contents
Introduction
Objective__________________________________________________________________________________________2
Background_______________________________________________________________________________________3

Finding A. DoD Policy Must Clearly Define NID Roles
and Responsibilities _____________________________________________________________ 16
Conclusion______________________________________________________________________________________ 21
Recommendation, Management Comments, and Our Response___________________________ 21

Finding B. DoD Needs A Centralized and Transparent
Contractor Database ____________________________________________________________ 23
Conclusion______________________________________________________________________________________ 26
Recommendation, Management Comments, and Our Response___________________________ 27

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 30
     Computer-Processed Data _ _____________________________________________________________ 30
     Use of Technical Assistance______________________________________________________________ 30
     Prior Coverage ___________________________________________________________________________ 30
     GAO________________________________________________________________________________________ 30
Appendix B. G-2 CFIUS Timeline_____________________________________________________________ 31
Appendix C. DD Form 254____________________________________________________________________ 32

Management Comments
Under Secretary of Defense for Intelligence_________________________________________________ 34
Under Secretary of Defense for Acquisition, Technology, and Logistics___________________ 37

Acronyms and Abbreviations______________________________________________ 39




                                                                                                       DODIG-2014-080│ v
                                                                                                                                 Introduction




Introduction
To compete in a global economy, the United States must foster an environment
that encourages foreign investments. Foreign investments can increase a nation’s
gross domestic product, with a corresponding increase in labor productivity,
wages, and employment. The United States is the world’s leader in attracting
foreign direct investments. Such foreign investments are not risk-free, as they can
potentially result in unauthorized access to classified or sensitive information or
adversely affect the performance on classified or unclassified contracts within
the defense industrial base.1 Accordingly, the United States must engender an
environment that encourages foreign investments while protecting information
vital to national security. These competing requirements should be considered
when mitigating Foreign Ownership, Control, or Influence (FOCI) within cleared
defense industry,2 and reviewing industry mergers and acquisitions that are
under Committee on Foreign Investment in the United States (CFIUS) purview.

Major Weapons Systems FY 2013 Funding Requests




  Source: FY2013 PRCP – Investment Categorization
  Numbers may not add due to rounding


	1	
    The defense industrial base is the DoD, government, and private sector worldwide industrial complex capable of
    performing research and development, and designing, producing, and maintaining military weapon systems, subsystems,
    components, or parts to meet military requirements.
	2	
    Cleared defense industry is the DoD, government, and private sector worldwide industrial complex with capabilities to
    perform research and development, design, produce, and maintain military weapon systems, subsystems, components, or
    parts to meet military requirements. Cleared defense industry does so in accordance with requirements established in the
    National Industrial Security Program Operating Manual (NISPOM).




                                                                                                                               DODIG-2014-080│ 1
Introduction



                 DoD’s FY 2013 acquisition funding request for weapons development, research,
                 and sustainment totaled about $178.8 billion. DoD, through the Defense Security
                 Service (DSS), also provides for reviewing FOCI concerns and administering
                 mitigation instruments for cleared defense industry—an essential partner in
                 systems development.

                 In addition, DoD, as a member of CFIUS, supports CFIUS determinations in
                 two ways. First, through its intelligence components, DoD provides threat
                 information to the Office of the Director of National Intelligence (ODNI), which
                 develops the aggregate threat assessment for each CFIUS case. Second, DoD
                 provides risk analyses which assess threat, vulnerability, and overall risk including
                 proposals to mitigate risks for those companies where DoD equities require the
                 analyses and proposals. This report reviews the FOCI and CFIUS processes to
                 determine whether roles and responsibilities are clearly defined, whether these
                 efforts are sufficiently synchronized and integrated in DoD, and whether additional
                 tools are needed to help bring about a consistent, comprehensive approach to
                 FOCI mitigation and CFIUS determinations.


                 Objective
                 This report responds to a request by a former Under Secretary of Defense for
                 Intelligence, to assess the efficacy of FOCI mitigation within the defense industrial base and
                 review the process for relaying relevant information to the CFIUS. It also responds to the
                 U.S. Government Accountability Office (GAO) high risk area of “ensuring the
                 effective protection of technologies critical to U.S. national security interests.”
                 Thus, this report assesses:

                          •	 The process for determining and relaying relevant threat information
                             on a CFIUS transaction from the appropriate DoD intelligence agency
                             to the DoD CFIUS lead and to the ODNI office responsible for the
                             aggregate intelligence community position on threats posed by a
                             CFIUS case;

                          •	 The efficacy of FOCI mitigation within cleared defense industry; and,

                          •	 The effectiveness of existing tools to support FOCI mitigation under
                             the National Industrial Security Program Operating Manual (NISPOM),
                             which in turn, is a contributing factor to CFIUS determinations when
                             companies being acquired possess facility clearances.




2 │ DODIG-2014-080
                                                                                                Introduction



Background
A U.S. company is considered to fall under FOCI when a foreign interest has the
power to direct or decide matters affecting that company’s managing of
operations in a way that may result in unauthorized access to classified information
or cause an adverse effect on the performance of classified contracts.

It applies whether this power is direct or indirect, whether or not it is exercised,
and whether or not it is exercisable through owning the U.S. company’s securities
by contractual agreement or other means.

FOCI considerations of U.S. companies requiring access to classified information are
explicitly addressed in the NISPOM, which the Secretary of Defense is responsible
for issuing and maintaining. FOCI concerns are one element to consider during
the   CFIUS    review     process.    DoD   supports     these    programs   through   the
synchronized    efforts    of   its   security,   intelligence,   and   counterintelligence
communities coordinating with the defense acquisition community.

FOCI policy is an element of the National Industrial Security Program (NISP).
The policy was designed to ensure that classified information in the custody of
cleared U.S. companies is protected from unauthorized access if a cleared U.S.
company is or will be acquired, controlled, or influenced by foreign interests.
When a cleared defense company is considered to be under FOCI, the U.S. company
is ineligible for a facility security clearance unless and until security measures
(e.g., certain mitigation instruments) have been installed to negate or mitigate
the FOCI. Similarly, CFIUS—an interagency committee—reviews mergers and
acquisitions involving a foreign individual, corporation, or other entity as a buyer
to determine the effect of such transactions on national security. In 2011,
CFIUS reviewed 111 voluntarily-filed proposed mergers or acquisitions.

The Department of the Treasury serves as the CFIUS chair, with the other
statutory members consisting of the Departments of Justice, Homeland Security,
Commerce, Defense, State, and Energy, the Office of the U.S. Trade Representative,
and the Office of Science and Technology Policy.

By Executive Order, the President has added other Executive Office agencies
as participants on the Committee, including the Office of Management and
Budget, the Council of Economic Advisors, and the National Security Staff.
The Director of National Intelligence (DNI) and the Secretary of Labor are
non-voting, ex-officio members.



                                                                                              DODIG-2014-080│ 3
Introduction



                 While CFIUS and FOCI determinations under NISP authorities proceed along
                 separate but parallel tracks, support for the programs is becoming increasingly
                 coordinated and integrated. The primary difference between the determinations
                 from an industry perspective is that for cleared defense industry, compliance
                 with FOCI reporting is mandatory under NISP authorities, while the reporting
                 to CFIUS of planned or completed mergers or acquisitions is voluntary (although
                 CFIUS does have the authority to request notices and member agencies have
                 the authority to file notices). Therefore, cleared defense contractors must report
                 changed ownership conditions (i.e., “change conditions”) to the DSS. The DSS
                 reviews those required change-condition reports to determine if the degree of
                 FOCI presented by the change requires carrying out a FOCI agreement or requires
                 any       modifications          to    an     existing       FOCI      mitigation        or     negation        agreement.
                 In contrast, CFIUS can only review mergers and acquisitions when a foreign
                 entity could subsequently exert control of a business engaged in U.S. interstate
                 commerce, filing a formal notice with CFIUS is primarily voluntary by firms involved
                 in mergers and acquisitions and CFIUS action to impose mitigation measures
                 or recommend Presidential action on a transaction is discretionary.


                 Relevant FOCI Policies
                 The primary authorities that provide for reviewing cleared defense contractors
                 for FOCI concerns are found in three separate issuances:

                               •	 Executive Order (E.O.) 12829, “National Industrial Security Program,”
                                   January 6, 1993, which established the NISP (E.O. 12829 was amended
                                   by E.O. 12885 of December 16, 1993);

                               •	 DoD Manual 5220.22, Chapter 2, “Security Clearances,” Section 3
                                   “Foreign Ownership, Control or Influence” of the NISPOM, which
                                   identifies the criteria for FOCI’s existence, establishes the requirements
                                   for annual reviews of companies under FOCI, and details the forms and
                                   certifications that address contractors’ operating requirements; and,

                               •	 Directive-Type Memorandum (DTM) 09-019, “Policy Guidance for Foreign
                                   Ownership, Control, or Influence,” September 2, 2009, which provides
                                   further guidance on FOCI mitigation procedures, allows for greater
                                   coordination on CFIUS matters, summarizes DoD policies, and clarifies
                                   requirements for National Interest Determinations (NIDs).3 The current
                                   DTM incorporates Change 6 of January 9, 2014.

                 	3	
                       A NID is a determination from a Government Contracting Activity that access to proscribed information is consistent with
                       U.S. national security interests.



4 │ DODIG-2014-080
                                                                                                      Introduction



Executive Order 12829
Issued on January 6, 1993, E.O. 12829 established the NISP with the goal to
protect classified information that is released to contractors, licensees, and
grantees of the U.S. Government. E.O. 12829 stated that issuing contracts to
non-governmental organizations promotes national interests, but can result in
contractor access to classified information. For this reason, E.O. 12829 stipulates
that classified information released to contractors must be protected at levels
commensurate with those in the Federal Government. E.O. 12829 also stated
national security requires that an industrial security program promote U.S.
economic      and   technological    interests    without      redundancy     or   unnecessary
requirements. Accordingly, this E.O. designated the NISP as the “single, integrated,
cohesive industrial security program to protect classified information and to
preserve our Nation’s economic and technological interests.” To that end, it
specified creating the NISPOM to “prescribe specific requirements, restrictions,
and other safeguards” for the handling of classified information.


National Industrial Security Program Operating Manual
Established in 1993 by E.O. 12829, the NISPOM regulates protecting classified
information    within   cleared     defense      industry.    The    NISPOM    stipulates    the
procedures and requirements for government contractors, concerning managing
and   protecting    classified    information     within     the    defense   industrial    base.
The requirements are detailed in the NISPOM, which lists four Cognizant
Security Agencies (CSAs)—the Departments of Defense and Energy, the Central
Intelligence Agency, and the Nuclear Regulatory Commission. The 2006 NISPOM
also lists 23 non-DoD agencies that have agreements with the Secretary of
Defense to render industrial security services as the Executive Agent for the NISP.

Since 2006, DoD has also entered into agreements with three other non-DoD
agencies for a total of 26. Guidance with respect to FOCI is found in Chapter 2
(see “Relevant FOCI Policies”) of the NISPOM.  The section details requirements
for annual reviews of companies under FOCI and details the forms and
certifications that address contractors’ operating requirements.

The NISPOM was amended in March 2013 to reflect changes which included
carrying out the provisions of Executive Order 13526, “Classified National
Security   Information,”       December   29,     2009,      regarding   derivative   classifier
identification and training.




                                                                                                    DODIG-2014-080│ 5
Introduction



                 This amendment identified the authority of the DNI and acknowledged that
                 intelligence    information     is   under     DNI      jurisdiction    and     control.    The    DNI
                 establishes    security   policy     for    protecting     intelligence    information,      sources,
                 methods, and analytical processes.


                 Directive-Type Memorandum (DTM) 09-019
                 Additional     guidance   for    FOCI      mitigation     was     issued   in    DTM       09-019,    a
                 memorandum that details procedures and requirements and allows for greater
                 coordination on CFIUS matters.  It reconfirms the standards for FOCI’s existence,
                 specifies timelines to U.S. companies to appeal FOCI determinations, and says:
                 “DSS shall also obtain and consider counterintelligence and technology transfer
                 risk assessments from all appropriate USG sources.” The DTM also provides
                 guidance with regard to NIDs, stipulating that when a foreign interest intends
                 to merge with or acquire a cleared company with access to proscribed
                 information, the government contracting activity shall review the FOCI action plan
                 that the company proposed. A NID is required if a Special Security Agreement (SSA) is
                 used to mitigate FOCI. DSS advises the Government Contracting Activities                          (GCA)
                 regarding the need for a NID and the GCA determines whether a NID will be issued.  A
                 Deputy Secretary of Defense memorandum provides further guidance and additional
                 requirements regarding the processing of NIDs.


                 Key Stakeholder – FOCI
                 Defense Security Service (DSS)
                 The DSS is a Defense agency under USD(I) authority, direction, and control that
                 serves as the DoD NISP Cognizant Security Office, providing industrial security
                 oversight and support to Defense agencies, the Services, 26 non-DoD federal
                 agencies, and approximately 13,500 cleared contractor facilities. The organization’s
                 core   operational    elements       are     the   Center       for    Development     of    Security
                 Excellence, Industrial Policy and Programs, Industrial Security Field Operations,
                 and Counterintelligence.

                 In accordance with these responsibilities, DSS inspects, monitors, and provides
                 assistance to the contractors, licensees, and grantees that require access to
                 classified information.




6 │ DODIG-2014-080
                                                                                             Introduction



An April 2008 GAO report entitled “Department of Defense – Observations on
the National Industrial Security Program” discussed the DoD NISP and identified
areas for improvement related to FOCI. Specific to FOCI, the report identified
the following:

         •	 concerns with how DSS collects and analyzes information needed to
            assess oversight of both contractor facilities and contractors under FOCI;

         •	 the lack of guidance to DSS field staff to effectively provide oversight
            at contractor facilities under FOCI; and,

         •	 the delay between cleared defense companies entering into foreign
            business transactions and the reporting of such to DSS.

Since the report’s release, DSS has staffed analytical, assessment and evaluation,
and   operational    offices   to   provide   continuous   monitoring   of   more   than
10,000 cleared companies for change conditions, such as foreign acquisitions
and provide proactive support for FOCI mitigation and oversight for more than
350 cleared companies operating under FOCI mitigation agreements. DSS also
reviews and monitors financial data to determine financial viability, foreign
indebtedness, foreign capital contribution, and to compare company-reported
information against commercial financial databases. In addition, DSS’ analytical
elements communicate change conditions to DSS oversight personnel through the
NISP Facility Oversight weekly newsletter designed to increase awareness of change
conditions within the NISP.  Finally, DSS has instituted operational procedures for
FOCI that identify responsibilities and provide for a consistent process to
support the field elements in FOCI determinations and oversight within cleared
defense industry.

Companies entering into the NISP are required to complete a Standard Form-328
(SF-328), “Certificate Pertaining to Foreign Interest,” to report the extent of foreign
ownership, control, or influence within their businesses. Companies self-report
any change conditions to FOCI factors in accordance with the NISPOM and
a clarifying Industrial Security Letter.




                                                                                           DODIG-2014-080│ 7
Introduction



                 In May 2009, DSS conducted a beta test where FOCI analysts reviewed all SF-328
                 forms for companies entering into the NISP regardless of company responses.
                 The review revealed concerns that FOCI was underreported. For this reason,
                 DSS now reviews all SF-328s and conducts independent analysis to validate
                 the information that prospective cleared companies provide.

                 During fiscal year 2012, DSS reviewed SF 328s for over 1,500 companies.
                 Of those reviews, about nine percent of the companies in-process for a facility
                 clearance         (FCL)4        had       unreported            FOCI        issues,       and       five      percent         had
                 counterintelligence issues. Depending upon the nature and extent of the FOCI
                 issues identified, DSS can require one of several mitigation instruments to minimize
                 the risk of unauthorized disclosure of classified information.

                 Distinct mitigation instruments are executed for corresponding levels of assessed
                 risk.  The first, a Board Resolution, is instituted when a foreign investor has a
                 minority stake, is not a member of the governing board, and is not authorized
                 to appoint or elect board members. A board resolution is a legally binding
                 document from the organization’s governing board acknowledging the foreign
                 investors identified from the first phase of the FOCI process. The resolution
                 prevents foreign investors from having unauthorized access to classified, or
                 export-controlled information,5 and denies influence or control over projects
                 involved with classified information. Another mitigation instrument called a
                 Security Control Agreement is typically imposed for minority foreign ownership
                 when the foreign owner does not effectively own or control the business and
                 is entitled to representation on the cleared company’s board. The foreign owner
                 is permitted to retain a limited voice in managing the business, but is
                 precluded          from        unauthorized             access         to     classified         or      export-controlled
                 unclassified information.

                 A Special Security Agreement is a mitigation agreement that may be used
                 when a foreign entity effectively owns or controls a company, and, as a result,
                 the SSA has more security restrictions than a Security Control Agreement.


                 	4	
                     A facility clearance or FCL is an administrative determination that, from a national security standpoint, a facility is eligible
                     for access to classified information at the same or lower classification category as the clearance being granted. The FCL
                     may be granted at the Confidential, Secret, or Top Secret level.  The FCL includes the execution of a Department of Defense
                     Security Agreement (DD Form 441). Under the terms of the agreement, the Government agrees to issue the FCL and inform
                     the contractor as to the security classification of information to which the contractor will have access. The contractor, in
                     turn, agrees to abide by the security requirements set forth in the NISPOM.
                 	5	
                     Unclassified information, the export of which is controlled by the International Traffic in Arms Regulations (“ITAR”) and/
                     or the Export Administration Regulations (“EAR”). The export of technical data, which is inherently military in nature, is
                     controlled by the ITAR. The export of technical data, which has both military and commercial uses, is controlled by EAR.




8 │ DODIG-2014-080
                                                                                           Introduction



The SSA still allows the foreign owner a voice in the business management
through representation on the company’s governing board via one or more
Inside Directors, directors representing the interests of the foreign entity.
However, the SSA also requires a minimum of three Outside Directors (or a number
greater than the number of Inside Directors) to act on the government’s behalf.

Outside Directors are independent directors nominated by the foreign interest and
approved by DSS which do not have any personal or professional relationships to
the parties of the FOCI mitigation agreement. An SSA requires the following:

        •	 a Technology Control Plan—a security countermeasure that stipulates how
           a company will prescribe measures to control access to non-U.S. citizen
           employees and visitors to information for which they are not authorized;

        •	 an Electronic Communications Plan—which supports the separation of
           networks and provides assurance that electronic communications do not
           result in the unauthorized disclosure of classified or export‑controlled
           information    or   exert   undue   influence   over   the   company;   and

        •	 a visitation policy—which outlines how visits from the foreign entity
           will be controlled by the cleared company.

Additional mitigation instruments include Proxy Agreements and Voting Trust
Agreements, which are more restrictive than other mitigation agreements and
do not require a NID for a cleared company to have contracts requiring access
to proscribed information that include: Top Secret information; Communications
Security information except controlled cryptographic items when either unkeyed
or used with unclassified keys; Special Access Program information; Sensitive
Compartmented information; and Restricted Data. This report will focus on SSAs,
and, in some cases, the resulting need for NIDs.

DSS is responsible for negotiating, executing, and administering mitigation
instruments in cleared defense industry and for making recommendations to the
OUSD(I) on whether FOCI mitigation is adequate to address any national security
concerns for those CFIUS cases involving cleared defense contractors. In both
cases, when an SSA mitigation instrument is in place and the company requires
access to proscribed information, DSS shall advise the GCAs of the need for a
NID. In addition to GCA approval, concurrence from owners of the proscribed
information (i.e. the National Security Agency for Communications Security
information, the Department of Energy for Restricted Data, and the ODNI for
Sensitive Compartmented Information) must be obtained.



                                                                                         DODIG-2014-080│ 9
Introduction



                 Relevant CFIUS Policies
                 CFIUS reviews mergers, acquisitions, or takeovers that may result in “foreign control
                 of any person engaged in interstate commerce in the United States” (it may also
                 consider whether the transaction could result in control of any “critical
                 infrastructure” that could impair national security). These transactions are defined
                 as covered transactions and were defined as such in the Exon‑Florio provision, which
                 is further detailed below. This report summarizes the following CFIUS laws,
                 regulations, and guidance:

                         •	 E.O. 11858, “Foreign Investment in the United States,” May 7, 1975;

                         •	 The Exon‑Florio Amendment to the Omnibus Trade and Competitiveness
                            Act of 1988, Pub. L. No. 100-418, 102 Stat. 1107, “Authority to Review
                            Certain Mergers, Acquisitions, and Takeovers,” USC 50 App § 2170,
                            which established Presidential authority to block proposed mergers
                            and acquisitions;

                         •	 Public Law 110-49, “Foreign Investment and National Security Act,”
                            July 26, 2007, which formally established CFIUS under statute and
                            clarified the process for national security reviews; and,

                         •	 DoD Instruction 2000.25, “DoD Procedures for Reviewing and
                            Monitoring Transactions Filed with the Committee on Foreign
                            Investment in the United States (CFIUS),” August 5, 2010, which
                            provides internal DoD guidance to support CFIUS.

                 Executive Order 11858
                 In establishing CFIUS, E.O. 11858 authorized the Secretaries of State, Treasury,
                 Defense, and Commerce, and the U.S. Trade Representative, the Chairman of the
                 Council of Economic Advisers, the Attorney General, and the Director of the Office
                 of Management and Budget to serve as committee members, with the Secretary of
                 Treasury as committee chair.  The committee’s primary responsibility is to monitor
                 foreign investment in the United States by analyzing trends and developments.

                 The committee is also tasked to provide guidance and review investments with
                 possible major implications for U.S. national interests, and submit coordinated
                 Executive Branch recommendations and analyses to the National Security Council
                 and the Economic Policy Board, as warranted.




10 │ DODIG-2014-080
                                                                                           Introduction



Exon‑Florio Amendment
Enacted under the Omnibus Trade and Competitiveness Act of 1988, the
Exon‑Florio Amendment modified Section 721 of the Defense Production Act
of 1950 by establishing an investigative process to determine the effects on
national security of proposed mergers, acquisitions, and takeovers of U.S.
companies by foreign interests. The Exon‑Florio provision gave a maximum of
90 days to finish reviewing a proposed transaction. The decision to investigate
had to be made within 30 days.  If so determined, a subsequent investigation had
to be completed in 45 days. The President had to decide within an additional
15 days whether action was to be taken to block the transaction. These timelines
remain in effect.

The President designated CFIUS to administer the Exon‑Florio amendment in
E.O. 12661, Section 3-201: “Implementing the Omnibus Trade and Competitiveness
Act of 1988 and Related International Trade Matters” of December 27, 1988.
With   the   Exon‑Florio   amendment,    Congress      authorized   the   President   to
review foreign acquisitions, mergers, or takeovers of U.S. companies including
defense-related firms. The President gained the authority to suspend or prohibit
such transactions if they presented “credible evidence” of threats to national
security which could not be addressed by other laws.


Foreign Investment and National Security Act
Public Law 110-49, 50 United States Code, Appendix 2061, the Foreign
Investment and National Security Act (FINSA) was signed into law July 26, 2007,
and added additional requirements to the Exon‑Florio Amendment. Previously
operating under the authority of E.O. 11858, CFIUS was also formally established
in statute under FINSA. The Secretary of Energy was added as a voting member
and the Secretary of Labor and the DNI were added as non-voting members.
Under FINSA, the DNI is tasked to analyze the threat to the national security of
the United States posed by a covered transaction, and incorporate the views of
intelligence agencies regarding these threats, although it is statutorily constrained
not to contribute to any subsequent policy discussions in CFIUS.  The Act requires
that for each covered transaction, at least one member of CFIUS will be designated
as a co-lead agency with Treasury.  The duties of the co-lead agency(ies) include
negotiating, modifying, monitoring, and enforcing any agreement CFIUS enters




                                                                                       DODIG-2014-080│ 11
Introduction



                 into with foreign persons in order to mitigate national security risks.  FINSA
                 also provides CFIUS the authority to impose mitigation measures during a
                 CFIUS investigation period without Presidential approval if the parties fail to
                 agree to terms the Committee considers necessary to protect national security.

                 The Act also stipulates that the designated lead agency continue to monitor
                 mitigation instruments that they enter into on behalf of the Committee. While
                 notifying CFIUS about a transaction remains voluntary, FINSA formalized the
                 process which allows for unilateral initiating of reviews by CFIUS absent an
                 industry filing. Moreover, FINSA stipulates that approved transactions can be
                 undone if material information was found to have been deliberately withheld or
                 misrepresented during the review.


                 DoD Instruction 2000.25
                 DoD Instruction 2000.25 establishes policy, assigns responsibilities, and provides
                 instructions for DoD CFIUS reviews and designates primary responsibility for
                 oversight of these efforts to the Under Secretary of Defense for Policy.
                 However, in 2011, the Secretary of Defense directed that the lead DoD responsibility
                 for CFIUS be transferred to the Under Secretary of Defense for Acquisition,
                 Technology, and Logistics.

                 The instruction also establishes the DoD CFIUS Monitoring Committee and
                 prescribes procedures to both propose mitigation agreements that are then
                 recommended to CFIUS, as well as monitor those agreements that CFIUS approves
                 and the parties sign. It assigns responsibilities to over 20 DoD organizations,
                 departments, and component heads to review and monitor CFIUS transactions
                 where DoD equities exist and establishes internal timelines for CFIUS reviews
                 that ensure compliance with Committee requirements.

                 The instruction stipulates that the DoD CFIUS process should be transparent,
                 to the extent possible. It also says organizations should address potential
                 implications    for     relevant   DoD       programs,   assets,   and     future   technological
                 superiority resulting from a foreign acquisition involving a defense supplier,
                 defense-related       technologies,    and    infrastructure   critical    for   DoD   missions.
                 The instruction further directs DoD Components that are members of the
                 Intelligence Community to fulfill their alternate role of providing additional
                 support   and     information         to   the    ODNI    regarding       threats   that   CFIUS
                 transactions pose.




12 │ DODIG-2014-080
                                                                                     Introduction



Key DoD Stakeholders – CFIUS
Office of the Under Secretary of Defense for Acquisitions, Technology,
and Logistics
As previously noted, as part of the DoD Efficiencies Review, the Office of the
Secretary of Defense transferred DoD lead responsibility for CFIUS to the
USD(AT&L), with the change becoming effective in October 2011. The primary
CFIUS responsibility within the Office of the USD(AT&L) was delegated to the
office of the Deputy Assistant Secretary for Manufacturing and Industrial Base
Policy (MIBP). In this capacity, MIBP serves as the DoD representative to
CFIUS, negotiates agreements with industry, and internally negotiates and prepares
the DoD position on CFIUS matters.


Office of the Under Secretary of Defense for Intelligence
When acquisitions and mergers involve cleared defense contractors under DSS
oversight, the members of CFIUS understand that DSS evaluates FOCI mitigation
options under its NISP authorities. DoD does advise CFIUS of the results of the
DSS FOCI mitigation determination. However, apart from the role that DSS
plays in determining if FOCI mitigation is feasible under NISPOM guidance and
the particular form it should take, CFIUS members are also responsible for
determining if CFIUS mitigation is required to protect national security for those
parts of a transaction which are not covered by NISPOM authorities over
classified contracts.

Operating under OUSD(I) authority, direction, and control, DSS coordinates
proposed FOCI mitigation under NISP authorities through the OUSD(I). DSS gives a
consolidated OUSD(I) response to USD(AT&L) on mergers and acquisitions that are
subject to the FOCI program of the NISPOM and that also meet the definition of a
covered transaction under CFIUS. DSS also provides valuable information to
USD(AT&L) and CFIUS on FOCI mitigation and also briefs CFIUS on FOCI issues.

If after reviewing a case, DSS determines an acceptable level of FOCI mitigation
and the GCA also finds the FOCI level acceptable, this information is reported
to the OUSD(AT&L)/MIBP through OUSD(I). If DSS needs more time to complete
its FOCI review than the 30 days afforded under the parallel CFIUS review,
OUSD(I) requests a CFIUS investigation to enable DSS to complete its FOCI
decision process in time for the responsible DoD officials to complete their CFIUS
consideration within CFIUS statutory deadlines.




                                                                                 DODIG-2014-080│ 13
Introduction



                 In either case, CFIUS, as a group, must still conclude whether the FOCI
                 mitigation negotiated by those member agencies with classified contracts is
                 adequate to address any identified national security concerns and meet the
                 statutory CFIUS clearance standard of no unresolved national security concerns.


                 Services
                 As the main source of classified contracts within DoD, the Services play an
                 integral role in both CFIUS and FOCI determinations.  As the GCA, the appropriate
                 Service will receive communications with the filings attached from both the
                 OUSD(AT&L)/MIBP and DSS if the transaction involves a cleared company
                 advising of CFIUS notifications by companies under their purview and the parties’
                 FOCI mitigation proposal respectively.

                 The   Services    review   the   information   and   submit   their   concurrence   or
                 non-concurrence within the prescribed timeframes by the DoD CFIUS lead and
                 DSS for DTM 09-019. When the proposed merger or acquisition involves cleared
                 defense industry, established guidelines exist for the mitigation required under
                 the FOCI authorities from DTM 09-019. However, determining whether appropriate
                 CFIUS mitigation measures are required depends on the broader facts and
                 circumstances of each case, and DoD components combine their respective
                 assessments and make recommendations as part of the overall CFIUS review
                 process, which considers the adequacy of existing law to address identified
                 national security risks.

                 In addition, one Service acquisition official said the Services need to better
                 understand what the Office of the Secretary of Defense expects the Services to
                 provide for a CFIUS review. He also said his office would appreciate standardizing
                 the process to ensure that expectations are being met.


                 Missile Defense Agency
                 The Missile Defense Agency (MDA) International Security office is the designated
                 lead for engaging appropriate MDA organizations that are accountable for
                 reviewing, coordinating, and processing CFIUS cases. That office chairs the
                 MDA CFIUS Coordination Team, which is supported by General Counsel; the
                 Director, Research Development and Acquisition; Security; and a representative
                 and an alternate from the Contracting Directorate, Special Programs; and the
                 Counterintelligence Division.




14 │ DODIG-2014-080
                                                                                                Introduction



The office has an internal 13-day timeline for processing CFIUS cases and for
formulating and presenting MDA’s position. CFIUS cases that have MDA equities
are reviewed and evaluated using an established procedure that ensures
a comprehensive review for identifying any MDA concerns. The cases are
coordinated with other stakeholder Staff Directorates, and recommendations
are formulated based on security evaluations and input received during the
coordination process. MDA’s recommendations are forwarded to OUSD AT&L
for consolidating into a DoD position.


Defense Intelligence Agency
DoD Instruction 2000.25 charges the Director, Defense Intelligence Agency (DIA)
with providing analytical support to DoD-related CFIUS determinations. In turn,
the Director, DIA, delegated the responsibility to the Office of Technology and
Long-Range Analysis, which provides risk assessments for mergers and acquisitions
with DoD equities. The information is provided internally to the Office of the
Secretary of Defense for inclusion in a broader security threat assessment that
the CFIUS group within the National Intelligence Council prepares. The Council
supports the Director of National Intelligence as the head of the Intelligence
Community     and   its   center   for   long-term   strategic   analysis.   At   DIA,   the
Technology    and    Long-Range      Analysis   office    prepares     assessments       that
determine the technology transfer and diversion risks of CFIUS transactions
based on specific criteria. Of note, however, is that while the office does
provide analytical input, it does not offer recommendations on approving
proposed mergers or acquisitions.




                                                                                            DODIG-2014-080│ 15
Finding A




                 Finding A
                 DoD Policy Must Clearly Define NID Roles
                 and Responsibilities
                 The Deputy Secretary of Defense memorandum, “Improving the Implementation
                 of Policy Guidance for Foreign Ownership, Control, or Influence (FOCI)” of
                 September 14, 2011, established requirements to ensure that GCAs make
                 timely submissions of NIDs to authorize foreign-owned or controlled U.S.
                 companies cleared under (or in process for a facility clearance under) an SSA
                 access to proscribed information. Despite this memorandum, a persistent backlog
                 of NIDs exists within some Services and organizations. This is due, in part, to
                 existing security policy and guidance which, while establishing time requirements,
                 does not provide for a consistent process among Services and organizations.
                 The resulting backlog can delay facility clearances and may impede technically
                 proficient         foreign-owned            U.S.     companies          from       fully     participating         in    the
                 government contracting process.

                 Determinations require coordination among internal DoD security, intelligence
                 elements, and GCAs, and both internal and external government owners of
                 proscribed information. For this reason, it is essential that DoD establish
                 consistent processes DoD-wide. This will help ensure interagency coordination
                 to bring about timely responses regarding NIDs.



                 The NID Process Through NISP Authorities
                 National Interest Determinations are an integral part of the FOCI program under
                 NISP authorities. This holds true when classified contracts involve proscribed
                 information6 and the decision whether to pursue a NID, along with an SSA will
                 also affect the recommendations that DSS, OUSD(I), and the affected GCAs will
                 make to the DoD CFIUS lead. When a cleared U.S. company performing on an
                 existing classified contract with access to proscribed information is acquired by a
                 foreign interest, or when a U.S. company cleared under an SSA wants to bid on a
                 new contract requiring such access to proscribed information, DTM 09-019 directs
                 DSS to advise the affected GCA that it requires a NID. The requirement for NIDs


                 	6	
                       Proscribed information includes Top Secret; Communications Security material, excluding Controlled Cryptographic
                       Items when unkeyed or utilized with unclassified keys; Restricted Data; Special Access Program; and Sensitive
                       Compartmented Information.




16 │ DODIG-2014-080
                                                                                                    Finding A



applies to new contracts pending issuance to existing SSA companies, and also
to existing contracts when foreign interests acquire cleared companies and an
SSA is the proposed mitigation.

Once the decision is made that a NID is required, DSS will alert the GCA of
that requirement. The GCA, in turn, will determine which office has authority
over the contract and seek the necessary concurrences. DSS can supply threat or
FOCI information to help an organization assess associated risk. An overarching
policy exists on requiring NID decisions within 30 days (allowing an additional
30 days for NIDs requiring coordination with concurring agencies, i.e., National
Security Agency for COMSEC, Department of Energy for Restricted Data, or the
ODNI for Sensitive Compartmented Information), but current processes and
guidance do not support the timelines associated with the policy. After the
GCAs   coordinate     the   prepared   NID    for   signature   within    their     respective
organizations, the signed NID is forwarded to DSS, and DSS notifies the SSA
company that the NID has been awarded. The complete NID package must
include a security point of contact, but it also must be signed off at the
acquisition-program executive-office level.


Deputy Secretary of Defense National Interest
Determination Memorandum
The Deputy Secretary of Defense signed the NID memorandum to address the
persistent backlog of pending NIDs. The memorandum cited the “slow,
inconsistent,   and    often   unresponsive     consideration     of     national     interest
determinations (NIDs) by government contracting activities (GCAs).” Accordingly,
each DoD component head was required to provide the name of a senior official
(e.g., senior acquisition executive or component equivalent), who would be
responsible and have the authority to make NID decisions for the component.
Component heads were advised that the names had to be provided to the
USD(AT&L), USD(I) and the Director, DSS, within 30 days of the memorandum’s
date. The Deputy Secretary of Defense also stipulated that monthly reports be
sent to the USD(I) and the USD(AT&L) on all pending NID requests more than
30 days old. He said that the report would include the status of all NIDs
awaiting   concurrence      from   non-DoD     owners     of    proscribed    information.
When the memo was issued, about 300 unresolved determinations existed
from current foreign owned companies operating under DSS approved SSAs.




                                                                                             DODIG-2014-080│ 17
Finding A



                 The Deputy Secretary of Defense charged GCAs to resolve the backlog within
                 60 days of the memorandum date. A NID status summary report from
                 September 14, 2012—slightly more than a year after the issuance of the memo—
                 listed 179 pending determinations from GCAs, with 31 requiring input from the
                 owners of proscribed information (concurring agencies). The average length of
                 time pending for GCAs was 458 days; the average length of time for input from
                 concurring agencies was 278 days.


                 Identified Concerns
                 The Deputy Secretary of Defense memorandum on NID procedures sought to
                 ensure   timeliness   and     accountability   for   determinations   by   requiring   the
                 designation of a responsible senior official and submitting recurring reports
                 detailing metrics for outstanding NIDs. The memorandum did not, however,
                 establish a standardized process for the Services and organizations.  The definition
                 of a senior official is not clearly articulated. For example, the individual can
                 either be a “senior acquisition executive” or a “component equivalent.” This
                 ambiguity of what qualifies as a component equivalent prevents standardizing a
                 process that involves elements both internal and external to DoD. Of note, minutes
                 from a February 2012 NID working-group meeting indicated that despite the
                 September 2011 memorandum, several organizations had yet to identify a senior
                 official. Accordingly, a follow-on memorandum was being sent to those GCAs
                 who had not formally responded with a point of contact. The level of GCA
                 non-compliance    indicates    that   a   standardized   process   among    organizations
                 is absent.

                 Information obtained via interviews with officials charged with supporting
                 CFIUS determinations confirmed the need for a standardized approach for NIDs
                 under NISP authorities. One official said that the process is “broken” and that
                 some of the Services used “outdated NID procedures.” It was also said that
                 the information owners or concurring agencies often disregard NID requests
                 instead of giving a timely response. One Service security official said a central
                 issue is the absence of an identified line of communication between the security
                 and acquisition sides to support the NID process. Without a central “belly button,”
                 no way exists to ensure the timely exchange of information. The Deputy Secretary
                 of Defense memorandum does not specify that the designated senior official
                 should be affiliated with security or acquisition; thus, the memorandum fails
                 to address this concern.




18 │ DODIG-2014-080
                                                                                              Finding A



As   the   primary     GCAs,   the   Services   periodically   encounter   issues   when
determining which office has authority for specific contracts. A Navy security
official discussed the Navy’s internal NID process. When security officials are
notified that a NID is needed, they must find the appropriate acquisition office
with cognizance over the contract.  However, the contract can at times be joint, or
under the aegis of multiple organizations. Therefore, determining the responsible
party can be difficult. Also, the contract could be close to expiring, e.g., within the
next three months, or already expired. In such cases, some acquisition personnel
choose not to respond to the determination request because it has become
irrelevant, or soon will be.


Successful Practices (Army)
Of all the Services, the Army had the greatest success coordinating the efforts
of its intelligence, security, and acquisition communities. More specifically, the
Army has ensured timely responses from owners of proscribed information to
support NIDs. This was accomplished when elements within Army Industrial Security
and Counterintelligence underwent an independent process review to determine
areas for improvement within its CFIUS program.  The resulting changes included
identifying and training additional personnel and creating checklists, standard
operating procedures, and documented workflows.  In addition, a CFIUS case quality
tracker was created to track deficiencies, and quality and completeness issues were
communicated to external DoD organizations. Internal communication was also
improved by creating an inter-departmental governance structure.  For areas where
the concern involved resource constraints, the Army identified low-cost workflow
management technology options.

The Army created checklists to ensure that requests to owners of proscribed
information had the requisite data for information owners to submit responses
without having to request additional information, thus proactively preventing
delays in NID processing under NISP authorities. Furthermore, the Army
created template memos for respective owners of proscribed information, draft
justifications   for   information    owner     determinations,    and     examples   of
determinations to be forwarded to DSS. The Army G-2 worked diligently to be
the focal point for all NIDs and end the NID backlog. DSS sends the initial NID
request to the Army G-2 and the Army G-2 would determine what Army
element was responsible. The Army G-2 tracked all the NIDs in a database until
a final NID determination was made and forwarded to DSS. The Army G-2
also collaborated with the Command and Industrial Security personnel to
explain the NID process and due dates.


                                                                                       DODIG-2014-080│ 19
Finding A



                 While the new procedures played a major role in ensuring the timely processing
                 of NIDs, Army G-2 also noted the presence within the Army acquisition office
                 of “champions” who improve communication between G2 and the Assistant Secretary
                 of the Army for Acquisition, Logistics, and Technology.  This advancement, along
                 with education and training, are ways in which the Army has managed to
                 achieve effective coordination between Army G-2 and Acquisition elements.

                 The Army is currently transferring primary responsibility for CFIUS issues to its
                 acquisition office, with direct support from the Deputy Assistant Secretary of the
                 Army (Procurement) contract office.  This is consistent with changes at the Office
                 of the Secretary of Defense-level where OUSD AT&L MIBP has the lead for CFIUS
                 matters.  Moreover, because acquisition and contract offices are more readily able
                 to identify responsible parties for NIDs under NISP authorities and for CFIUS
                 reviews, the change should ensure continued timely processing of CFIUS cases.
                 This change will also include continued coordination with Army G-2 and its
                 Counterintelligence and Industrial Security elements. A chart detailing the
                 coordinated efforts within the Army in support of CFIUS, as well as established
                 timelines, is shown on Appendix B.


                 Current Efforts
                 The Government Industrial Security Working Group (GISWG) has also focused on
                 issues related to delays in NID processing. The GISWG is a government working
                 group that DSS chairs. It meets quarterly, or on an as-needed basis to address
                 relevant security policy implementation related to industrial security matters.
                 An October 2012 presentation at the GISWG stated that NIDs have been a topic
                 of discussion for the GISWG and DoD for several years. The briefing referenced
                 the Deputy Secretary of Defense memorandum on NIDs and acknowledged that
                 despite the guidance, a backlog of over a year persists for some determinations.

                 To address this problem, the GISWG established a separate working group to
                 discuss creating “blanket” NIDs, or NIDs that authorize a scope of information
                 broader than traditional NIDs, which are program, project, or contract specific.
                 The working group, comprised of DoD, DSS, and concurring agencies established
                 procedures and conditions for a limited blanket NID concurrence. Limited blanket
                 NID concurrence will cover specific categories of proscribed information and enable
                 approval for entire companies that meet specified criteria. The company must
                 show a history of no International Traffic in Arms Regulations violations, and
                 compliance with an SSA for a minimum of 10 years.




20 │ DODIG-2014-080
                                                                                                       Finding A



In addition, a threat assessment, a FOCI assessment, and an annual security
vulnerability assessment must be in place. The company or the GCA can originate
the request for a blanket NID concurrence. Additional criteria exist for applicants
and once granted, companies will be required to maintain a “Satisfactory” or
higher security rating.


Conclusion
The Deputy Secretary of Defense memorandum sought to address “the slow,
inconsistent,   and       often        unresponsive     consideration    of   national   interest
determinations (NIDs) by government contracting activities (GCAs).”                  Data from
DSS and GISWG meeting minutes, however, show that a significant backlog of
determinations still exists within some organizations. The persistent delays that
remain in NID processing affect industry, the Services, organizations, and
DoD headquarters.

While the limited blanket NID concurrence will improve coordination issues with
owners of proscribed information, it will not remedy incongruous DoD internal
processes of GCAs. The issue of inconsistent NID processes within DoD Services
and organizations can, and should be, addressed at the DoD headquarters level.


Recommendation, Management Comments, and
Our Response
Recommendation A
We recommend that the Under Secretary of Defense for Intelligence, in
coordination with the Under Secretary of Defense for Acquisition, Technology,
and Logistics, issue guidance that both delineates responsibility for coordination
within respective Services and organizations, and outlines a consistent process
flow for NIDs to further a synchronized and coordinated approach to support
CFIUS determinations and FOCI mitigation.


Under Secretary of Defense for Intelligence Comments
The   Under     Secretary         of    Defense   for     Intelligence   concurred   with    our
recommendation and stated that a proposed directive-type memorandum is in
the DoD policy issuance process. The proposed directive-type memorandum is
expected to be approved and published by the third quarter of FY 2014.




                                                                                                DODIG-2014-080│ 21
Finding A



                 Our Response
                 The comments of the Under Secretary of Defense for Intelligence were responsive.


                 Under Secretary of Defense for Acquisition, Technology, and
                 Logistics Comments
                 The Under Secretary of Defense for Acquisition, Technology, and Logistics also
                 concurred with our recommendation.


                 Our Response
                 The comments of the Under Secretary of Defense for Acquisition, Technology, and
                 Logistics were responsive.




22 │ DODIG-2014-080
                                                                                                               Finding B




Finding B
DoD Needs A Centralized and Transparent
Contractor Database
DoD elements involved in identifying and carrying out security requirements
presently have limited access to the information necessary to support industrial
security. This is due, in no small part, to the absence of a central repository
for classified contracts and relevant documentation. The result is a cumbersome
and   inefficient    process    to   verify,   track,    and    manage        relevant     contractor
documentation.       A    centralized   database        will   help     ensure       consistent    and
coordinated efforts in DoD.



DD Form 254
DD    Form    254,       “DoD   Contract   Security      Classification      Specification,”      is   a
security-requirements document associated with the NISP. A DD Form 254 must
be included in any contract that requires access to classified information and
is issued by a DoD component or Executive Branch Department or Agency that
has an agreement with DoD. At the time of preparing this report, 26 federal
agencies have such agreements with DoD. DD Form 254 details for the contractor
the relevant security provisions required for protecting classified information
accessed, generated, received, or otherwise associated with the contract. It also
establishes the scope of a contractor’s security program. In addition, the form
provides the framework for the required DSS oversight of the contractor’s
security program.  A copy of DD Form 254 is provided in Appendix C.

Some information provided in the DD Form 254 is captured in the DSS
Electronic Facility Clearance (e-FCL) system. Currently, all companies in process
for a FCL or reporting a change condition are entered into e-FCL, which
functions as a central repository of company information required for FCLs
and FOCI mitigation. DSS is able to upload forms related to FOCI mitigation to
include the mitigation agreement and its implementation procedures into e-FCL.

The system also retains relevant corporate information, which includes articles
of incorporation and bylaws, key management personnel lists, shareholder
agreements,    certificates     of   incorporation,      SF-328       “Certificate    Pertaining       to
Foreign Interest,” DD Form 441 “Department of Defense Security Agreement,”
and DD Form 254.



                                                                                                        DODIG-2014-080│ 23
Finding B



                 Presently, 65 percent of cleared contractors under DSS security cognizance have
                 accounts in the e-FCL system. Regarding contractor-completed DD Form 254s,
                 the system does not correlate the information entered with other systems because
                 it is not an enterprise database. Accordingly, data is only as accurate as the
                 information that is received.


                 Identified Concerns
                 DSS has identified several issues on how DD Form 254 and contractor
                 information is processed. The absence of a central repository for classified
                 contracts and relevant documentation results in limited access and visibility for
                 the offices tasked with identifying and carrying out security requirements
                 associated with those contracts.  Before being entered into the e-FCL, DD Form 254s
                 are received in either paper or PDF format and either faxed, emailed, or
                 hand-carried to the appropriate offices. Identified issues include timeliness,
                 accuracy, absence of verification of receipt, and lack of version control. The lack
                 of   an   automated        centralized   process   for   creating,   submitting,   reviewing,
                 modifying, approving and/or reapproving, and storing DD Form 254 results in a
                 cumbersome, inefficient, and often ineffective process.

                 DSS documents also identify concerns with how DD Form 254s are currently
                 managed. Absent oversight for quality control, no means exist to prevent or
                 reduce human errors or redundancies.  No means are currently in place to ensure
                 data integrity, visibility, and access control of the information contained in
                 DD Form 254. While the information is unclassified, it is still important that the
                 information contained therein be protected.

                 While forms reside with the contractor, DD Form 254s are also sometimes
                 distributed by the GCA to the DSS office with authority over the contractor.
                 This distribution may include many organizations in support of the contract,
                 including Program Managers, Prime Contractors, Subcontractors, GCAs, and the
                 DSS field office with oversight of the contractor facility. The approximately
                 13,500 cleared contractor facilities over which DSS has oversight retain copies of
                 the form—one per classified contract. Larger companies can have thousands
                 of classified contracts.




24 │ DODIG-2014-080
                                                                                                            Finding B



Once received by DSS, the forms may be retained in paper or PDF format in one
of the 26 field office locations in separate facility file folders. GCAs may find it
difficult to determine the appropriate DSS field office for receipt of the form,
particularly for multiple-facility organizations where contract performance may
occur at a division office, subsidiary, or cleared offsite location.

Moreover, the relationships of cleared facilities within a corporate family can
be difficult to ascertain, making it hard to track a classified contract/program
from   a     prime    contractor       through     the    various   tiers     of    subcontractors.
Consequently, no efficient comprehensive process exists to track government
programs or technologies across the defense industrial base, and no mechanism
exists for searching DD Forms 254 based on user-defined criteria.

The concerns listed above are also reflected in comments that the Services and
organizations expressed identifying specific problems accessing or validating
information provided on the DD Form 254.

During the award of classified subcontracts, cleared prime contractors occasionally
enter inconsistent requirements (e.g., the need to have access to COMSEC) and
that information is not vetted through a central repository or a granting agency.
This can add unnecessary upfront security costs and subsequently delay NIDs
if a company incorrectly identifies requirements upfront for an SSA company,
resulting in later requests for determinations from uninvolved information
owners.      Both    Services    and    organizations      identified   the        inconsistency    of
information provided in DD Form 254s. While the information is submitted in a
standardized form, it is not always correctly filled out.  It was also pointed out
that USD(AT&L) had “scrambled” to meet time requirements for two CFIUS cases
as a result of information that contractors had misidentified in boxes on
DD Form 254.

A related issue was also raised involving uncleared subcontractors, whose
business information is not listed in any type of industrial security repository.
Such subcontractors with significant foreign revenue or foreign connections
could present a FOCI concern if they are in the supply chain for components of
classified    technology.       The   issue   of   uncleared     subcontractors         within     the
cleared contractor supply chain surfaced several times and warrants a separate
in-depth     review     to   determine        potential    supply-chain       risks     to   cleared
defense industry.




                                                                                                     DODIG-2014-080│ 25
Finding B



                 While no direct prohibition to using the DD Form 254 exists for unclassified
                 contracts, the purpose of the form and its data collection is for contracts
                 requiring      access      to    classified       information,        as     outlined       in    the    Federal
                 Acquisition Regulation.


                 Current Efforts
                 GISWG meeting minutes, additional documents, and interviews reveal that the
                 feasibility of creating a Contract Security Classification Specification/DD Form  254
                 database has been discussed for several years. The project, however, has never
                 been funded. The Army G-2 developed such a database to support its own
                 sensitive     compartmented             information       contracts,       and     the     Army       Acquisition
                 element has a database of unclassified contracts. No centralized DD Form 254
                 database exists, however, for all DoD elements and the NISP. The Army’s sensitive
                 compartmented information database was reviewed to determine if it could serve
                 as a model for a database to support DoD and NISP. It was decided that the
                 database contained elements which could provide the foundation for a similar
                 database supporting all DD Form 254 documentation. A demonstration of the
                 Army system was provided to stakeholders to include all of the DoD components,
                 Executive Branch Agencies, cleared contractors, OUSD(I), and the Information
                 Security Oversight Office. A decision was made that the Army system could
                 be modified to fulfill the greater need of the NISP. The DSS Office of the Chief
                 Information Officer has initiated a project to use the Army system as the
                 basis for a contract security requirements specification database. The intent
                 is   to    collect      requirements       from     the     various        stakeholder       groups      pending
                 contract      efforts     to    secure     a   requirements-definition                 subject-matter     expert.
                 Requirements‑definition           workshops          will   then       be    established         with    various
                 stakeholder groups.


                 Conclusion
                 A    single     repository        for     security      specifications           for     classified     contracts
                 (e.g., DD Form 254s) within DoD, and within the cleared contractor community,
                 can provide centralized access and visibility to all parties involved in the NISP.
                 GCA can enter security specifications directly into the database at the beginning
                 of the acquisition process, thereby reducing the likelihood that inaccurate and
                 potentially unnecessary costly requirements will be added. Cognizant elements
                 could have 24-hour access to their respective DD Form 254s via controlled
                 access and role-based permissions. A centrally-managed database will help track




26 │ DODIG-2014-080
                                                                                               Finding B



the status of DD Form 254 through the life of the contract process, while also
improving quality and consistency via an automated creation, review, and
approval process. It will also help in analyzing security trends among
Government projects and programs.

At issue is whether Acquisition or Security will have accountability for the
DD Form 254 database and the resulting enterprise system. Given its existing
relationship with cleared defense industry, and its role in administering the NISP
on behalf of the Secretary of Defense and user agencies, DSS is well-positioned
to provide oversight for any resulting database and, as previously noted, is
actively working to create a functioning database upon which an enterprise
system could ultimately be constructed.


Recommendation, Management Comments, and
Our Response
Recommendation B
We recommend that the Under Secretary of Defense for Intelligence, in
coordination with the Under Secretary of Defense for Acquisition, Technology,
and Logistics, direct the creation of a centralized repository for cleared
defense contracts, to maintain DD Form 254s and other contract security
requirements for classified contracts, and designate the Defense Security
Service as executive agent in its role as the National Industrial Security Program
Cognizant Security Office for DoD, 26 non-DoD agencies, and approximately
13,500 cleared contractors.


Under Secretary of Defense for Intelligence Comments
The Under Secretary of Defense for Intelligence concurred with the first part of
our recommendation to direct the creation of a centralized repository for
cleared defense contracts, to maintain DD Form 254s and other contract security
requirements for classified contracts. They stated that ongoing efforts by the
Defense   Security   Service   for    developing   the   National   Industrial   Security
Program   Contract   Classification    System—the    single   repository   for   contract
security classification specifications to support DoD and the National Industrial
Security Program—began in 2012. Further, the DoD Investment Review Board
is evaluating the National Industrial Security Program Contract Classification
System and the Review Board’s approval is necessary before the Defense
Security Service can obligate any funds to build the National Industrial Security




                                                                                        DODIG-2014-080│ 27
Finding B



                 Program Contract Classification System. The Defense Security Service is also
                 working with the Defense Procurement and Acquisition Policy Office, Office of
                 the Under Secretary of Defense for Acquisition, Technology, and Logistics, to
                 determine the possibility of co-developing the National Industrial Security Program
                 Contract Classification System. Developing this system will reduce design and
                 development lag time by leveraging an existing Under Secretary of Defense for
                 Acquisition, Technology, and Logistics database.

                 The Under Secretary of Defense for Intelligence did not concur with the last
                 portion of our recommendation that requested the designation of the Defense
                 Security Service as executive agent in its role as the National Industrial
                 Security Program Cognizant Security Office for DoD, 26 non-DoD agencies, and
                 approximately 13,500 cleared contractors. They stated that in coordination with
                 OUSD(AT&L) they will reevaluate whether there is a requirement for an executive
                 agent, during the development of the National Industrial Security Program
                 Contract Classification System as well as the Office of Management and Budget/
                 Federal Register information collection approval process.  The Under Secretary
                 of Defense for Intelligence anticipates approval of a revised DD Form 254
                 information collection with DoD’s updated industrial security policy in the
                 second quarter of FY 2015.


                 Our Response
                 The comments of the Under Secretary of Defense for Intelligence were responsive
                 to the recommendation. We will monitor the development of the DD Form 254
                 central   repository,   and   the   corresponding   Office   of   Management   and
                 Budget/Federal Register approval process, to determine the feasibility of an
                 appointment. Otherwise, the response of the Under Secretary of Defense for
                 Intelligence addressed all the specifics of the recommendation, and no additional
                 comments are required.


                 Under Secretary of Defense for Acquisition, Technology, and Logistics
                 Comments
                 The Under Secretary of Defense for Acquisition, Technology, and Logistics quoted
                 the Under Secretary of Defense for Intelligence response to this recommendation,
                 agreeing to the first portion of Recommendation B to direct the creation of a
                 centralized repository for cleared defense contracts, to maintain DD Form 254s




28 │ DODIG-2014-080
                                                                                                     Finding B



and   other    contract    security     requirements      for   classified   contracts.    They
non-concurred with the portion of the recommendation to designate the
Defense Security Service as executive agent for the National Industrial Security
Program Contract Classification System.


Our Response
The comments of the Under Secretary of Defense for Acquisition, Technology,
and Logistics were responsive to the recommendation to create a centralized
repository for cleared defense contracts. We will monitor the development of
the DD Form 254 central repository, and the corresponding Office of Management
and Budget/Federal Register approval process, to determine the feasibility of
an appointment. Otherwise, the response of the Under Secretary of Defense for
Intelligence   addressed    all   the    specifics   of   the   recommendation,      and    no
additional comments are required.




                                                                                              DODIG-2014-080│ 29
Appendixes




                 Appendix A
                 Scope and Methodology
                 This assessment was conducted from April 2012 to July 2013, in accordance with
                 Quality Standards for Inspection and Evaluation that the Council of the
                 Inspectors General on Integrity and Efficiency issued. Those standards require
                 that we plan and perform the assessment to obtain sufficient appropriate
                 evidence to provide a reasonable basis for our findings and conclusions based
                 on our assessment objectives. We believe that the evidence obtained provides
                 a reasonable basis for our findings and conclusions based on our assessment
                 objectives. To accomplish the objective, we reviewed relevant policies and guidance
                 and interviewed officials responsible for carrying out FOCI mitigation and DoD
                 support to CFIUS determinations.


                 Computer-Processed Data
                 We did not use computer-processed data to perform this assessment.


                 Use of Technical Assistance
                 We did not receive any technical assistance for this assessment.


                 Prior Coverage
                 During the last five years, the DoD OIG has issued no reports that have addressed
                 issues specific to FOCI and CFIUS concerns. Unrestricted DoD OIG reports are
                 at http://www.dodig.mil.


                 GAO
                 During the last five years, the GAO issued the following two reports addressing
                 issues specific to FOCI and CFIUS concerns:

                 GAO Report No. GAO-08-0695T, “Department of Defense: Observations on the
                 National Industrial Security Program,” April 2008.

                 GAO Report No. GAO-08-0320, “Foreign Investment: Laws and Policies Regulating
                 Foreign Investment in 10 Countries,” February 2008.

                 Unrestricted GAO reports are at http://www.gao.gov.




30 │ DODIG-2014-080
                         Appendixes




Appendix B
G-2 CFIUS Timeline




                     DODIG-2014-080│ 31
Appendixes




                 Appendix C
                 DD Form 254




32 │ DODIG-2014-080
                           Appendixes



DD Form 254 (cont’d)




                       DODIG-2014-080│ 33
Management Comments




                 Management Comments
                 Under Secretary of Defense for Intelligence




34 │ DODIG-2014-080
                                                  Management Comments



Under Secretary of Defense for Intelligence (cont’d)




                                                        DODIG-2014-080│ 35
Management Comments



                 Under Secretary of Defense for Intelligence (cont’d)




36 │ DODIG-2014-080
                                                 Management Comments



Under Secretary of Defense for Acquisition, Technology,
and Logistics




                                                       DODIG-2014-080│ 37
Management Comments



                 Under Secretary of Defense for Acquisition, Technology,
                 and Logistics (cont’d)




38 │ DODIG-2014-080
                                                                                   Acronyms and Abbreviations




Acronyms and Abbreviations
      CFIUS Committee on Foreign Investment in the United States
   COMSEC Communications Security
        DSS Defense Security Service
      e-FCL Electronic Facility Clearance System
     FINSA Foreign Investment National Security Act
       FOCI Foreign Ownership Control or Influence
       GAO Government Accountability Office
    GISWG Government Industrial Security Working Group
      MDA Missile Defense Agency
      MIBP Manufacturing and Industrial Base Policy
       NIDs National Interest Determinations
       NISP National Industrial Security Program
   NISPOM National Industrial Security Program Operating Manual
      ODNI Office of the Director of National Intelligence
     SF-328 Standard Form 328
        SSA Special Security Agreement
 USD(AT&L) Under Secretary of Defense for Acquisition, Technology, and Logistics
     USD(I) Under Secretary of Defense for Intelligence




                                                                                              DODIG-2014-080│ 39
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
